No. ____________
IN THE

Kenneth Clark,
Petitioner,
v.
MATTHEW CATE,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Interim Federal Public Defender
JONATHAN C. AMINOFF*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-5374
Facsimile: (213) 894-0310
jonathan_aminoff@fd.org
Attorneys for Petitioner
Kenneth Clark
*Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner was represented by counsel in the Ninth Circuit under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: July 27, 2020

By: /s/ Jonathan C. Aminoff

Jonathan C. Aminoff*
Deputy Federal Public Defender
Attorneys for Petitioner
Kenneth Clark
*Counsel of Record

1

